      EARNING INTEREST

   ON FEDERAL GRANT FUNDS


      National Program Inspection





   9ffice of Analysis and Inspections

      Office of Inspector   General

Department of   Health   nd Human Services


             AUGUST 1985

                          " .             ---



                                TABLE OF CONTENTS



                                                                Page

MAJOR FINDINGS

RECOMMENDATIONS

BACKGROUND                            0 . .

FEDERAL SHARE OF INTEREST AND SAMPLE PERIOD

GENERAL FINDINGS

PROJECTED FEDERAL SAVINGS


INTEREST RATES AND SERVICE CHARGES                   co .. .


ADDITIONAL FINDINGS

METHODOLOGY AND SAMPLE

MAJOR FINDINGS
  Of about 4, 000 nonprofit        grantees of the Office of Human Development
  Services (OHDS) and the Public Health Service (PHS) who were studied in this
  program inspection , 80% do not earn interest on federal funds kept in banks
  16% earn interest but do not report or return any to the federal government
  and only 4% earn and return interest.
  Some 94% of all grantees elect to commingle their federal grant funds in bank
  accounts with nonfederal funds. The mean average daily
                                                              balance in these
  accounts is $65, 831 ,   of which the federal share is $20 129, or about 31%.

  The amount of       federal funds lost by these nonprofit grantees who fail to
  collect or return interest         250 000 per year. However , this amount may
                                 is $4
  be significantly higher     due to bank deregulation in 1986 , when banks may
  competitively pay more than 5- 1/4% interest.
   About 80% of these same nonprofit grantees are               also losing an additional
  $8 million per yer in interest on       nonfederal funds kept in non- interest- bearing
   accounts. Again , this loss   may be higher after bank deregulation.
   If it is   assumed (or later proven)   that these findings are also representative of
   the 9 000 to 10 000 other grantees of OHDS and PHS who are
                                                                      required to
   return interest but were not sampled in this study (including private hospitals
   and colleges , school districts ,   local   governments and other grantees), then the
   lost interest                  million per
                    totals over $13                   year in   federal funds , plus about
   $25 million per year in nonfederal funds.

   Grantees who are funded via letter-of-credit     keep a somewhat lower
   percentage of their grant dollars in the bank than do grantees funded via
   Treasury check disbursements.          Even so , large   daily balances remain in   the
   bank accounts of both groups of        grantees.

   Most grantees can easily obtain bank accounts paying at least 5- 1/4% interest
   and can avoid paying fees on such accounts. Virtually all can hold any fees
   to a level of 2% to 7% of the interest earned. To forego interest for "
   fee " banking is a very poor exchange for most grantees.
   There are        weaknesses in the Department'            handling of grantee       cash
   management reports and in the         control of interest via the audit process.
RECOMMENDA nONS

   The Department of        Health and Human Services should amend 45 CFR 74 to
   require that all grantees not statutorily exempt should maintain federal funds
   in bank accounts which pay interest. 

   The Department      of   Health and Human Services should recommelld again that
   the Office of   Management and Budget revise Circular       A- 110   to mandate that
   all nonexempt grantees of         the government use similar interest- bearing
   accounts.
   Grants management and other federal program officials should enforce existing
   policies requiring grantees to report and return interest earned on federal
   funds and should actively encourage and monitor grantee use of interest-
   bearing accounts.

   Contract auditors should be explicitly instructed to identify interest earned
   by grantees and the federal share thereof and to assure return of the federal
   share to the government per      existing policy instructions.
 BACKGROUND

 The Department of Health and Human Services (HHS), Office of Inspector General
 (OIG), is already on record in support of strengthening requirements on the
 accrual and return of interest earned on federal grant funds.
 In September 1982 , Inspector General Richard P. Kusserow recommended to the
 HHS Assistant Secretary for Management and Budget (ASMB) and to the Office of
 Management and Budget (OMB) that OMB Circular A- II0 and HHS regulations be
changed to mandate maximum                           use of interest-                                nonprofit gran
tees. The OIG estimated that $2. 4                                      bearing accounts by

                                                               millon would be                saved annually by HHS
         basing this estimate solely on the 5- day float period between
gran tees ,                                                                                                 the time
grantees write checks and the time the funds exit their bank accounts
On March               5 , 1983           Inspector General Kusserow testified before the
Committee on                     the Budget that the Intergovernmental CooperationHouse
                                                                                   Act
(P. L.     90- 577)   should be changed to require                 state and local governments to return
to the           federal government interest earned on grant                funds , estimating that $25.
millon annually could thereby be                        saved.
On July 22 1983 the General Accounting Office (GAO) issued a report on 18
federal programs (6 in HHS), recommending clearer federal policy on and better
reporting of grant-related income.    As recently as February 10 , 1984 GAO
reported that some HHS grantees are not reporting interest earned on grant funds
and recommended improvements in disposition of grant-related income by HHS
grantees)
On May 8 , 1985 , the HHS Assistant Secretary for Management and Budget
responded to the OIG report ACN 12- 53004 on cash management of programs
selected states. The response agrees with the Inspector General'
recommendation that the Joint State/Federal Cash Management Reform Task
Force should initiate legislation                     to   make states accountable for interest earned            on
excess federal funds.

During two recent program inspections in the Head Start program , grantees
complained to OIG staff that they' " were required" to keep grant funds in non-
interest- bearing              accounts.
                           In fact , 45 CFR                               74
                                                  gives nonprofit grantees the
option to earn interest ,                    so long as they report it and return it to HHS.




1 Memos dated 9/20/82 to ASMB Sopper , OMB Deputy Associate Director
Kleinberg, OMB Deputy Director Wright.
2 Improved Standards Needed for Managing and Reporting Income Generated Under

Federal Assistance Programs. GAO/66D- 83- 55.
3 Depl: of HHS                Should Improve Policies and Practices on                        Grant- Related Income.
GAO/66D- 84- 20.
4 Memo dated 

                           5/8/'l5        ASMB O' Shaughnessy to IG Kusserow.
As of August 1984 , when this study was initiated , no change in either OMB
Circular A- 110 or 45 CFR 74 was planned with respect to interest earned
nonprofit grantees. HHS grants management staff estimated that perhaps 90% of
such grantees were not earning interest and that there were no available data
the actual amount offederal funds being carried in bank accounts by grantees.
HHS generally has taken the approach that encouraging grantees to draw down
funds only as needed , rather than prematurely (in accordance with OMB Circular
   lID , Attachment F , Item 2.      ), is the best
                                               way to assure appropriate use of
federal funds. In fact , some grants management staff believe that encouragement
for grantees    to   earn (and return) interest might undercut           efforts to make
drawdowns timely. As a result ,        grantees are not encouraged to collect interest
on federal grant funds.
Finally, although some grantees were reporting interest earned in their quarterly
cash management reports ,      as required , and were returning interest to         grants
management offices annually or more frequently, no collected information about
interest earned or returned was available in HHS. Some 22 Public Health Service
(PHS) and Office of Human Development Services (OHDS) grants offices (2 per
region and 2 in headquarters), as well as              the
                                                   Rockville Payment Management
Center , are involved in the collection , management , reporting, and accounting for
interest earned by grantees.
This study was initiated , therefore , to obtain valid information about the actual
amount of federal grant funds kept in bank accounts (regardless of the drawdown
frequency), the portion earning interest , and the interest reported and returned.
 Unless otherwise exempt , all PHS and OHDS grantees are obligated under OMB
 Circular A- 110 , 45 CFR 74 and departmental grants administration manuals to
 report nonexempt interest earned. This study addresses only the nonprofit portion
of the    universe of grantees in PHS and OHDS. State entities were excluded
 because they are not required to         return interest to thefederal government.
 Local governments , school districts       local and
                                                    private colleges , hospitals and
 Indian tribes were excluded from the sample because , even though usually
. required to return interest , their banking and accounting systems are often too
large or complex to be reviewed by the          mail   survey approach used in this study.
More than 5 000 nonprofit grants remained , representing about $1.6 billion. (See

Methodology and Sample , below , for further details on sample.)


FEDERAL SHARE OF INTEREST AND SAMPLE PERIOD

Existing regulations and manuals      do not specify how the federal share of interest
should be computed by grantees        who elect to commingle federal grant funds with
other funds in the same bank        account. At the outset of this study, no collected
information was available      in   HHS to    indicate how many grantees do , in fact
commingle federal     and other funds        in bank  accounts and how many maintain
 purely federal" accounts.


This study was not designed to audit any specific grantee s liabilities for interest
due to the government , or to review the individual accounting systems or records
by which grantees may document expenditures assigned to the federal grants. It
is assumed that some grantees with commingled bank accounts do maintain records
adequate to compute the federal share of interest            in those accounts.
For purposes       this study, we assumed that         the
                                                       federal grant funds in
                                                    at the same rate as the
               of
commingled bank accounts were being expendeddaily       balance in the account,
nonfederal funds. Thus , by computing the average
                                             federal share, or a
                                                                 IIfederal grant
we had  a  base against  which to compute  a
fund average daily balance.
                                    upon the total volume of federal
                                                                       grant dollars in
We computed this share based                                                     period
the account and/or deposited to the account at any time             during the
         (llfederal volume ) compared to the total of all           dollars in and/or
reviewed
deposited to the account during that period.


    Federal share =    Federal volume

                        Total volume


                                                             management reports
We obtained the IIfederal volume " information from the cash
                                                         , in which the grantees

(Standard Form 272) submitted quarterly by the grantees day of the quarter , as

state the amount of federal cash on
                                          hand as of the first
                                          during the quarter. We obtained the

well as the total of grant funds received
total volume information directly from the
                                            bank statements forwarded by the

grantees at our request.

                                                              , we were generally     able
 By requesting five consecutive months of bank statements
to match three months of bank statements with a 272
                                                               quarterly report (which

does not a ways follow calendar quarters).
                                           In a few cases , however , it was
                                                               months.
 necessary to make quarterly projections from fewer than three full
 This approach was not developed to 

                                         provide an exact audit able reading on federal
            individual accounts. Rather ,     the approach was designed to give a
 funds in
 cumulative reading-- for   policy analysis purposes--of the federal funds being held
                                                             detailed studies    of   their
 in bank accounts , without burdening grantees with
 accounts and books.
 GENERAL FINDINGS
. Ninety- four percent of   the grantees    have chosen to " commingle " federal HHS
                                                                   grantees with 585
                            in   common bank accounts. Out of 432
 funds with other funds
 grants , only 26 bank accounts appeared to be "
                                                     purely federal " i.   , in which the

                                    funds disbursed for the       period
studied.
 amounts did not exceed the federal 

                                                  to " small " from one receiving $19
 The grantees studied ranged from " large "  receiving under $5, 000/year. Fifty-
 millon per year (in 11 grants) to several                 000 for the year. The
 seven received over $1 millon , and 44 received under $50
                                        000 for the year.
 average grantee sampled received $585
                                                                                      $345.
  The grantees average daily bank balances
                                     greater
                                              ranged from $1.5 millon to over
                                             than $1 million , and 57 were
  Three average daily balances werebank balance was  $65 831.
  $100 000. The mean average daily
                                                                            average daily
  The "federal average daily balance " of grantees (federal share x
  bank balance) ranged from $459 000 to $0. Seven      grantees had federal average
  daily balances over $100 000 , and 34 over $50
                                                  000.   The mean federal average
  daily balance was $20  129     This indicates that about 31       % of
                                                                      the money
                                           is
  grantee bank accounts on the average day 

                                                    federal grant money. (See pp. 3­
for explanation of federal share computations.           At an
                                                            annual interest rate of
  1/4% , compounded monthly (yield = 5. 54%) the " average grantee " sampled could
earn annual interest of $3, 647 , of which the federal portion would be $1 117.



                       THE "TYPICAL" GRANTEE SAMPLED
            FY 1984   Grant = $585, 000
            Draws funds via letter-of-credit
            Commingles federal and nonfederal money in no- interest
            bank account

            Has average daily bank     balance of $65    831...
            Of which $20    129 is federal
            Pays no bank fees
            Foregoes potential annual bank interest of $3 647...
            Of which $1   117 would be federal funds
            Reports/returns no interest to HHS
            Has no audit findings regarding interest



Of the 432 grantees whose bank statements were examined , only 87 showed
receipt of any interest. In other words , 345 or 80% of the grantees apparently
retain their federal grant funds (and usually other funds as well in non-
interest- beqringaccounts. These non- interest- bearing accounts handle 85% of the
annual grant dollars let and have a combined average daily balance of over
$20 millon , of which over $7 millon is the federal share. In short , these 345
grantees are apparently foregoing (not earning) about $387 800 in yearly interest
on federal grant   funds in their accounts   , plus an
                                                     additional $1 108 000 per year
interest on non federal funds held in these accounts.

The 87 grantees earning interest do so at       different rates ,   varying from 1 %
 12% of their average daily balance. The cumulative amount of interest actually
earned by these grantees was , not surprisingly, 5. 4% of their combined average
daily balance. The federal share of the funds in these interest bearing accounts
was only 20% (compared to the 31% share in all accounts). Even so , these 87
  rantees earned 1984 interest    on   federal funds , by our computation , of about
.590 000 , in addition to interest on nonfederal funds of $363 769.
Only 9 grantees whose bank statements       showed interest reported interest earned
in their quarter ly cash management       reports. Although the other 78 did not
report any interest ,   their cash reports indicated the presence of federal funds
their accounts.    Another 9 grantees whose bank statements showed interest but
whose cash report did not , nonetheless had returned some interest money to their
grants management office during FY 1984; 5 of these 9 had apparently done so
response to an audit.
                                                                         were not
In summary, therefore , out of 432 grantees sampled , 345 or 80%reporting
receiving interest , another 69 or 16% were receiving interest butreturned
                                                                   not           or
                                                                           interest
returning any of it to HHS , and 18 or 4%            had reported           or
during FY 1984.        With 96% of the   grantees sampled not returning interest ,                 the

                              HHS (at 5- 1/4% compounded monthly) totals $462                   47/+.
annualized interest lost to




                 GRANTEES RECEIVING AND/OR RETURNING INTEREST



                                              80%: Not Receiving Interest

                                              16%:    Receiving          Not Returning
                                                                  Interest


                                              4 %:    Receiving          Returning
                                                                  Interest




 5 Note: The FY 1984      audit closure was not due for every grantee sampled
                                                                              in this

     udy   at report   time. Therefore , more grantees who did not
                                                                                        report interest
 quarterly may return interest directly or as a result of audit.
                                                                    being earned
 However , of the 87 grantees whose bank statements showed interest      1981 to
 only 31 had any completed audit on file in the OIG
                                                                    during the period


 present . Of these 31 audits , only 14     audits even mentioned the word "interest
                                                sources of the grantee; only 5                   audits
 and then usually in tables showing revenue
 identified interest due for   return to the federal government.

 Although not definitive because of the timeframe , our             findings give no reason
 believe that the audit process is effectively policing             interest earned on federal
 gr ant funds.
PROJECTED FEDERAL SAVINGS
The Inspector       General is          already on record   recommending    that all   grantees
including state governments, should be required to return interest earned on HHS
grant funds. This       report repeats thatrecommendation and provides a firmer basis
for projecting the     fiscal impacts of this recommended policy change.
The specific universe from which the study sample was drawn was a group of
 377 grants received by 3 970 nonprofit grantees during FY 1984. The
                                                                     value of
these grants was $1        637 million.

Since 96% of       these were found to be paying no interest on a mean federal
average daily bank         balance of $20       129, we calculate
                                                        that the entire group of
nonprofit grantees represented by this sample are failing to earn or return some
   250 000 per year to the federal government.

In addition to the nonprofit grants actually sampled , another group of 13
                                                                               645
grants received by 8 652 grantees    should  be yielding bank  interest. However
these grants , totaling $2 168 millon , are received by grantees whose
                                                                           banking
systems we judged too    large or  complex            for the
                                                    mail  survey approach  of this
study. If  (1) it is assumed  that  their banking/interest patterns are similar to
those of the nonprofit grantees sampled or if (2) subsequent study confirms this
similarity, it is                 additional
                    estimated that an          918 000 per year is being lost in
unearned or unreturned interest on these federal grants.

The total federal loss would be about $13 million per year for all OHDS and        PHS
grants, stil    excluding interest lost on  grants   to states , state agencies , state
universities , and state hospitals. In addition , grantees are losing some $25 millon
per year interest on        nonfederal funds in their     accounts.

INTEREST RATES AND SERVICE CHARGES

The 87 sample grantees earning interest showed an                   average annualized interest
rate of 5.     4%. Individually, the        annualized interest rates ranged  from 1 % to 12%.

In order to determine more precisely the interest rates available to grantees , we
conducted a " mini-study " of 50 financial institutions in 35 states at whichmini-
                                                                                50
grantees currently are             banking.
                                   While  only 18%   of the grantees in the
sample had their funds in interest- bearing accounts , 92% of the banks offer at
least one interest- bearing checking account option to nonprofit organizations.




    Precision +/- 13% at the 90% confidence level or +/- 15% at the, 95%
 confidence level. This range is fairly wide for the sample size; however
                                                                            the

 wide variation in individual grantee interest accounts for the spread. To have
 attained a precision         of +/- 5% at the     95% confidence   level would have required a
 sample size of 2 131         grantees.
Nearly every bank contacted        offers what is commonly called a      NOW account
which pays a fixed rate of 5- 1/4% interest (an effective yield of 5. 48% to 5. 67%
depending   upon how frequently the interest is compounded. ) With few exceptions
there are   unlimited check-writing privileges and no service charges as long as
certain minimum   daily or monthly balances are      maintained.
                                                               Interest continues to
accrue regardless of whether minimum      balances are maintained.     Half the banks in
the sample also offer a second ,    higher- yielding checking account , commonly called
Super- NOW accounts.
                                                                              per
An examination   of 125 months of grantee bank statements (1 to 3 months
                                                                        minimum
grantee) showed that most of the time grantees would have met the
                                                                           bank.
requirements for a NOW account at the institutions where they currently
This means that most of the 37 grantees not earning interest   could  have  been
                                                                      Several  of
accruing interest at a minimum rate of 5- 1/4% with no service fees.
the  grantees who dropped below their bank minimums would     still have earned
some interest because high balances during part of the month would    have more
                                                               mini-sample   also
than offset   theassessed fees. Many of the    grantees in the
would have qualified for the higher      rates offered in Super- NOW   accounts.

Although federal regulations      currently limit financial institutions from offering
more than 5- 1/4%on their       fixed-rate NOW accounts , this limitation will be lifted
in 1986 as part of the move toward deregulating the banking industry. Given the
competition this action is likely to foster , interest rates for general purpose

checking accounts are expected to be higher in the future.

We conclude ,  therefore , that all grantees should       be able to locate interest-
bearing accounts (almost all at the same banks now        used), yielding at least 5. 54%
annualized interest (5- 1/ 4 % compounded monthly).        After deregulation in 1986
even higher interest rates will be available
A common misperception among grantees and grants officers is that it "isservice.
                                                                              a "fair
exchange " to receive no interest from the      bank   in return for " no fee
Most grantees are , indeed , receiving " no fee " service.
Only 59 of     432 grantees ,    or 14% , paid any bank fees in the months sampled.
 Thirty of these 59    received no interest but     paid fees averaging about $168 per
 year ,or $14 per month. The other 29 grantees paid fees and received interest.
                                                                          . 2% to
 Their fees aver aged about $ 225 per year , or $19 per month;rnging from
 44% of the amount of interest they earned     in the same period. The cumulative
 fees paid by these grantees amounted to 6.7%       of the interest they earned.

 Considering all the 59 grantees who paid fees , the fees averaged $196 per year
 or $16 per month. However , it must be remembered that 58 of the 87 grantees

 who  earned interest paid no fees. The total fees paid by the 87 interest-earning
 grantees amounted to only 2. 6% of the interest earned.
               GRANTEES PAYING FEES AND/OR RECEIVING INTEREST




                                                  73% : No              Fees      - No    Interest

                                                   7% :      Fees               Interest

                                                   7% :      Fees          - No     Interest


                                                  13% :      Interest             - No    Fees




Coupled with the finding that grantees actually avoided going under the minimum
balance requirements of their own banks   most of the time , these findings suggest
that most grantees can avoid paying fees altogether even while earning interest
and that virtually all who do incur fees can hold them to a level of 2% to 7% of
the amount of     interest earned. After paying such fees ,                    the " average " grantee
would still " clear "
                  over $1 000 per year in net     interest on the federal funds.
conclude that foregoing interest in return for " no       fee "     service is certainly not a
fair exchange for the average grantee.
ADDITIONAL FINDINGS

The following table illustrates the general similarity--and a     variations-­           few
between the 227 OHDS grantees and the 205 PHS grantees in our final sample:

                                                                    OHDS                          PHS

     % with federal-only accounts
     % on letter of credit                                                 23%                     100%
     A ver age gr ant size                                          $565 927                     $606 508
     Mean average daily bank balance                                $ 65 652                     $ 66 029
     Mean " federal" average daily bank balance                     $ 21 001                     $ 19 162
    Federal share of bank balance                                          32%                       29%
     % of grantees earning interest                                        16%                       25%
     % of grantees reporting/returning interest
So far as federal policy implications are concerned , we conclude                        that OHDS and
PHS grantees are not substantially different   with respect to their                     interest-earning
or reporting practices.
There is considerable belief in grants management circles that the letter-of-credit
disbursement system is more effective in preventing federal funds from lying
dormant in banks than the alternative Treasury check disbursement system. This
study gives one reading on this issue. For our sample we asked "What portion of
the annual,   federal grant dollars were lying fallow in the grantee s bank on the
average day (federal average daily balance/annual grant dollars)?"
                             "Fallow Percent" -      OHDS/PHS and
                             Letter-of- Credit/Treasury Check
                                           OHDS        PHS        COMBINED

    Letter-of- Credit                        11 %        16%          98%

    Treasury Check                           09%       N/A            09%

    Combined                                 68%         16%          42%

These findings are especially meaningful when compared to predicted or expected
"fallow percent" figures. Assuming funds are spent regularly J.n the same amount
each day of the week or month , one can calculate an expected average daily
balance anq "fallow percent" for each drawdown interval.

For example , a $100 grant disbursed       monthly   will put $100/12 or $8. 33 per month
in the bank; spending 1/30 of this     daily throughout the month leaves an average
daily balance in the bank of about half       the drawdown , or $4. 16 (about 4% of the
grant). Calculating similar    " fallow percents " for drawdowns occurring every 1, 2
or 3 weeks    gives the following table:
           Drawdown Frequency                        Expected " Fallow Percent"

           Monthly
           Every 3 weeks

           Every 2 weeks

           E very   week


By this measure, our sample shows OHDS Treasury-check grantees with bank
accounts about as expected for monthly drawdowns , PHS letter-of-credit grants

about as   expected for drawdowns every 3 weeks , and OHDS                   letter-of-credit
grantees at about the two-week drawdown level. Overall ,               the   letter-of-credit
system appears to be shaving about a week' s cash float off the monthly             Treasury
check disbursement pattern.
Perhaps the more significant finding       is that , despite   drawdown practices yielding
fair ly predictable bank balances , a large amount of interest is being lost to the
federal government. We believe that additional drawdown improvement may be
possible, but is not the    whole answer to this federal loss.
 METHODOLOGY AND SAMPLE

 This program inspection was designed during August and September                       1984
 beginning with preliminary discussions with HHS grants management officials in
 headquarters and several regions. States and their "instrumentalities " are exempt
 under the Intergovernmental Cooperation Act , as are Indian tribes unqer the
 Indian Self- Determination Act in the case of certain non- HHS funds. Assuming
 that state    colleges , universities , hospitals and other agencies are exempt , all
 other HHS grantees are required to          report and return interest earned. This
 includes nonprofit organizations , large and small businesses , Indian tribes , local
 governments , school districts , local or community colleges , private colleges and
 universities , and local and private hospitals.          The following table summarizes
 PHS and OHDS fiscal year 1984 grants:
                                           FY 1984 GRANTS
                              OHDS                 PHS                   TOT AL

   States
     II Grants                 597                     370                     967
     $ Awarded           $112. 7 million         675. 2 million         787. 9 millon
   NonProfits
    II Grants                 828                        549                  377
     $ Awarded           $806. 8 millon       $830. 6 million           637. 4 millon
   Other Grantees
     II   Grants               711                     934                    645
     $ Awarded           $286. 9 million         881.4 million          168. 3 millon
  From rY 1984 lists of OHDS and PHS grants , we excluded all state or local
  government agencies , school districts , colleges or universities and Indian tribes.
 Therefore , from the lists of 5 377 grants to nonprofits totaling $1 637 428 175 , we
 randomly selected an initial 305 OHDS and 301 PHS grants which after
. adjustments for nonactive status and other factors , yielded a final sample of 585
grants totaling $252 799    472. This      sample comprises 1.7% of all    FY 1984      OHDS
and PHS grants and 3. 8% of all grant dollars awarded (excluding Title XX block
grants). However , the sample comprises about             3% of those   grants to   entities
which are required to return interest , and 7%            of their award dollars. After
drawing this random sample , we then requested verification of the grant amounts
addresses and current status from the appropriate grants management offices in
HHS.


7 The HHS   Departmental Grants Appeals Board recently (8/31/83) decided against
an appeal by the Los Angeles County      Superintendent of Schools who argued that
the school district is a state " instrumentality " and thereby exempt.
8 HHS General Counsel opinion (June 1985) confirmed that                these entities are
ordinarily not exempt; under certain circumstances of state          law , however , it is
possible that some grantees may be " state instrumentalities.
9 Includes health block    grants; excludes OHDS Title XX block grants.
During September 1984 , pretest    letters were
                                              sent to 10 OHDS       10 PHS   and
grantees in the states of Washington and Pennsylvania      , all of
                                                            whom responded
promptly with the information requested. The request letter was then mailed
between October 22 and November 8    to an additional 549 grantees. (The total
number of grantees is     smaller than 606 because 37 of the grants sampled
represented a second or third grant to the same grantee.        In   all ,   569 grantees
were contacted.
Initial responses showed that some of the sampled grants were prior- year grants
being carried on the " active list for close-out purposes. Other grants were so
new that actual funding or drawdown had not yet occurred. A few grants were
in payment or award embroglios affecting cash flow        .!O In other cases , the
grantees turned out to be   in categories intended to be excluded from        the sample
(e.g., local government agencies not originally recognized as such). In each case
we sought to retain sampled grants representing active nonprofit FY 1984 grants
and to drop the others from the sample. In all , 95 grantees were dropped at this
stage.
In addition to contacts with the 95 "dropped" grantees , written responses were
received from 421 grantees in answer to the first request letter. A four-month
hiatus in data gathering occurred as a   result of an OMB reversal of the ASMB
position on Paperwork Reduction Act clearance.         After the OMB clearance was
given , a follow-up request letter was sent , which   resulted in responses from the
remaining 53 grantees during March 1985.




10
     Example: One grantee had been awarded a nurse anesthetist training grant
 in June 1984 , to be used for scholarships during the school year beginning in
. September. When the funds did not arrive in the fall , an official from the
organization made a number of telephone inquiries of the HHS Payment Center
before learning that a check had been issued , belatedly, on November 29. When
several more weeks passed and the check didn t arrive , the official made
additional telephone inquiries , and was finally advised on January 15 to make a
formal notification of a lost check. The Payment Center said they would then
begin tracing the check after a waiting period of eight weeks. This means that
the school would have received the grant , at the very earliest , more than nine
months after the grant award had been made.


OIG calls to the PHS grants management office revealed that they were unaware
in February 1985   thattheir grantee had     not
                                              received its money. When the
grants management office became involved   , as a
                                               result of the OIG inquiry, they
were advised by the Payment Center that the check had been lost and would be
reissued.  Prior to our inquiry, the grants management office was under the
impression that the grantee had made no efforts to obtain their funds. Had the
problem not been resolved prior to June , the end of the grant year , the grantee
would have lost the grant money altogether. As it was , all the students who had
been awarded scholarships under the grant lost their funds and some had left
school.
Meanwhile, we gathered quarterly cash reports for each grantee      for the same
time period as the requested bank statements.   To obtain these without burdening
the grantees , we requested  copies  from  the  HHS   regional and central grants
management offices (for  grantees paid via  Treasury check), and  manually  pulled
records at the HHS Payment Management        System  Center  (PMS)  in  Rockvile
Maryland (for the grantees paid    via letter of credit))l Despite major efforts on
the part of OIG PMS and agency grants officials , cash management reports from
42 of the grantees who responded to our request letter could not be located
time for this report.1 In all , some 175 cash management reports were located
for Treasury- check   grantees , and 257 reports   for letter-of-credit grantees.


In the case of letter-of- credit grantees who receive more than one grant PMS
cash management reports do not break out cash flow on each individual grant.
This necessitated the expansion of the number of grants analyzed , so that cash
flow was eventually computed on 585 individual grants going to 432 grantees.
Since most grantees commingle all HHS funds in the same bank accounts , the
effect of this   sample expansion was to obtain a broader reading of the federal
grant funds in   these accounts. We judged this approach more accurate than any
attempt to   artificially pro-rate combined        cash on hand reports to individual
grants.
                                    SUMMAR Y OF SAMPLE

                                                     OHDS         PHS       TOT AL

    Grants Originally Sampled                          305        301        606
    Grantees Originally Sampled                        298        271        569

    Pretest Grantees Contacted
    Other Grantees Contacted                           288        261        549
    Total Grantees Contacted                           298        271        569

     Dropped After Contact                           ( 57)       ( 38)      ( 95)

     Responding to First Request                       219        202        421
     Responding to Second Request

     Total Grantees Responding                         241        233        474

     Unlocated Cash Reports                          ( 14)       ( 28)      ( 42)

     Final Sample (Grantee + Cash Report)              227        205        432
     Final Sample (Grants + Cash Report)               254        331        585



11 Although PMS is a largely automated system , information on federal cash on
hand at    the beginning of each quarter ,     as reported by each grantee , is not
entered into the automated data      system. We were told that there are plans to
upgrade this system , pending adequate    resources.
 12 In some instances , it appears that grantees may not have been required to
file SF-272s. In other instances where grants are administered by regional
offices but payments are issued from the Rockville Payment Center , the regional
grants management officers told us the SF- 272s were in the Payment Center and
the Payment Center indicated these documents were the responsibility of the
regions. In a number of instances there was no explanation as to why the
SF- 272s were not available.
Three additional " mini-samples "   were analyzed during the study. For each of   the
grantees in which    either the bank statements      or the cash reports indicated
receipt of bank interest , (a) we reviewed completed audit reports , when available
on file in the OIG Office of Audit and (b) we queried each grants office as to
whether that grantee had returned any interest to the government during
FY 1984. Finally, (c) we called         50 grantees ' banks (selected randomly) and
obtained information about the bank interest available    to nonprofit organizations
on checking accounts , bank fees , and minimum    balance requirements.

Since the primary goal of the study was to     ascertain the amount of federal grant
funds which were earning or might have been earning bank interest ,          it was
necessary to   calculate an average daily bank balance for each grantee and
determine what portion of it constituted federal funds. We developed a
microcomputer program in BASIC to assist in calculating average daily balances
for grantees , most of whose bank statements did not provide this calculation.
employed a microcomputer software package called PC- File II to organize study
data and    an  OIG-approved microcomputer program , known as " f\RIAB" for
analysis of statistical precision. All computer work was done within OIG using
an IBM- PC(XT).
